APPENDIX
Opinions of the Fourteenth Court of Appeals............................................................ 1a
Order of Texas Court of Criminal Appeals refusing review ....................................14a
Plea paperwork 1 from 262nd District Court (Jan. 15, 2019).....................................15a

1

The paperwork is the same in both cases.

Appeals Reinstated, Motions Disposed, Appeals Dismissed, and Majority and
Concurring Opinions filed January 28, 2020.

In The

Fourteenth Court of Appeals
NO. 14-19-00380-CR
NO. 14-19-00381-CR
CARLOS MICHAEL LOPEZ, Appellant
V.
THE STATE OF TEXAS, Appellee
On Appeal from the 262nd District Court
Harris County, Texas
Trial Court Cause Nos. 1564443 and 1564444
OPINION
Carlos Michael Lopez pleaded guilty to and was convicted of aggravated
assault against a public servant and aggravated assault with a deadly weapon. The
trial court sentenced him to 15 years’ imprisonment for each conviction. Despite the
trial court’s certification that appellant waived his right to appeal, appellant filed a
notice of appeal in each case. We conclude appellant validly waived his right to
appeal and dismiss these appeals for lack of jurisdiction.

Appendix 1

BACKGROUND
Appellant pleaded guilty to aggravated assault against a public servant and
aggravated assault with a deadly weapon. No agreement regarding sentencing was
reached between appellant and the State; instead, a presentence investigation report
was prepared. Following a sentencing hearing, the trial court found appellant guilty
and sentenced him to 15 years’ imprisonment on each conviction, the sentences to
run concurrently. The trial court signed a certification of appellant’s right to appeal
in which it indicated appellant had waived his right of appeal. Appellant filed a pro
se notice of appeal. A few days later, the trial court appointed counsel to represent
appellant on appeal.
The State filed a motion to dismiss for lack of jurisdiction. The motion states
appellant agreed to waive his right of appeal in exchange for the State’s waiver of
its right to a jury trial. Only by pleading guilty to the judge would appellant have
been eligible for deferred adjudication community supervision. Because appellant
wanted to preserve the possibility of deferred adjudication community supervision,
the motion contends, he bargained for that possibility by getting the State to waive
its right to a jury trial. In exchange, the State obtained appellant’s waiver of his right
to appeal.
In response to the State’s motion to dismiss, appellant filed a “Motion to Strike
or Deny Appellee’s Non-Conforming Document.” Appellant asserts the only basis
on which the State may seek involuntary dismissal of a criminal case is the
appellant’s escape. See Tex. R. App. P. 42.4. Because the Texas Rules of Appellate
Procedure do not expressly permit the State to move for dismissal based on lack of
jurisdiction, appellant contends, we should strike the State’s motion to dismiss.
Alternatively, appellant argues the motion to dismiss should be denied because
(1) the trial court has now signed amended certifications indicating appellant has the
2
Appendix 2

right of appeal; and (2) the record does not support the existence of a negotiated
waiver.
The State responded to the motion to strike at our request. It contends that rule
42.4 applies only to a “valid” appeal, and these appeals are not valid because they
fail to invoke our appellate jurisdiction. In any event, the State says, this court lacks
jurisdiction, and it does not matter whether we dismiss the appeals on the State’s
motion or our own motion.
ABATEMENT AND FINDINGS OF FACT
The trial court originally certified that appellant had waived his right to appeal
either of his convictions. We sent a letter to the trial court stating (we now realize
mistakenly) that the records suggest appellant did not waive his right to appeal. In
response, the trial court filed amended certifications indicating that appellant both
had the right to appeal and waived his right to appeal. Due to the conflicting
certifications, we abated these appeals and directed the trial court to conduct a
hearing to make findings of fact as to whether appellant’s waivers of his right to
appeal were valid.1
The trial court conducted the hearing and made findings of fact applicable to
both appeals. The findings include:
1. Appellant waived his right to appeal in return for the State’s waiving its
right to a jury trial.
2. The original appellate records unambiguously showed that appellant
waived his right to appeal.

1

We abated these appeals for findings of fact due to the unique circumstances of these appeals—
namely, the conflicting certifications. We do not suggest that such a procedure would be necessary
or appropriate in every case in which jurisdiction is challenged, nor do we suggest a party would
be entitled to such a procedure in every case in which jurisdiction is challenged.
3
Appendix 3

3. Nothing in the records conflict with the statement in the plea paperwork
that appellant’s waiver of his right to appeal was part of a negotiated
bargain with the State.
4. “The State waived its right to a jury trial and [appellant] was put in a
position where he was able to request deferred adjudication community
supervision, which he did.”
Following receipt of the trial court’s findings, we notified the parties we
would consider dismissal of these appeals on our own motion for lack of jurisdiction
due to appellant’s waiver of his right to appeal. We invited the parties to file further
briefing on the jurisdictional issue. No such briefing has been received.
WAIVER OF RIGHT TO APPEAL
The right to appeal may be waived, and such a waiver is valid if made
voluntarily, knowingly, and intelligently. Carson v. State, 559 S.W.3d 489, 492–93
(Tex. Crim. App. 2018); Ex parte Delaney, 207 S.W.3d 794, 796-97 (Tex. Crim.
App. 2006); Simon v. State, 554 S.W.3d 257, 261 (Tex. App.—Houston [14th Dist.]
2018, no pet.); Jenkins v. State, 495 S.W.3d 347, 350 (Tex. App.—Houston [14th
Dist.] 2016, no pet.). A court of appeals lacks jurisdiction over and must dismiss an
appeal when the defendant has validly waived his right of appeal. See Jones v. State,
488 S.W.3d 801, 808 (Tex. Crim. App. 2016).
A waiver of appeal prior to sentencing may be valid if it is bargained for—
that is, if the State gives some consideration for the waiver, even if a sentence is not
agreed upon. Ex parte Broadway, 301 S.W.3d 694, 699 (Tex. Crim. App. 2009);
Simon, 554 S.W.3d at 261; Jenkins, 495 S.W.3d at 350. On the other hand, a nonnegotiated waiver of the right to appeal is valid only if the defendant with certainty
knows the punishment that will be assessed. Washington v. State, 363 S.W.3d 589,
589-90 (Tex. Crim. App. 2012) (per curiam); Delaney, 207 S.W.3d at 798-99;
Simon, 554 S.W.3d at 261; Jenkins, 495 S.W.3d at 350.
4
Appendix 4

To determine the validity of a waiver of a right to appeal and the terms of any
agreement between appellant and the State, we consider the written plea documents
and the formal record in light of general contract law principles. Jones, 488 S.W.3d
at 805; Ex parte De Leon, 400 S.W.3d 83, 89 (Tex. Crim. App. 2013); Simon, 554
S.W.3d at 261; Jenkins, 495 S.W.3d at 350.
Like this case, Delaney and Broadway both involved the State’s waiver of its
right to a jury trial and appellant’s waiver of the right to appeal. In Delaney, the State
merely consented to a bench trial; there was no evidence in the record of a bargain
between the parties regarding a bench trial rather than a jury trial. See Delaney, 207
S.W.3d at 798. In Broadway, by contrast, the record did contain evidence of an
agreement between the parties. The defendant’s trial lawyer had submitted an
affidavit stating Broadway “waived his right to appeal to induce the State to consent
to the waiver of a jury trial.” Broadway, 301 S.W.3d at 695. The Court of Criminal
Appeals said the bargain was not a traditional plea-bargain agreement, in which the
guilty plea is made in exchange for a certain sentence, but rather “a bargain of a
different sort.” Id. at 697.
We applied Delaney and Broadway as we considered whether the defendant’s
waiver of the right to appeal was valid in Jenkins and Simon. In each case, we held
that, just as in Delaney, there was no evidence that the State’s waiver of a jury trial
was made in exchange for the defendant’s waiver of his right to appeal. Jenkins, 495
S.W.3d at 352; Simon, 554 S.W.3d at 263.
The facts of these appeals are more like Broadway than Delaney, Jenkins, and
Simon. A document entitled “WAIVER OF CONSTITUTIONAL RIGHTS,
AGREEMENT TO STIPULATE, AND JUDICIAL CONFESSION” is included in
each record. Each is dated January 15, 2019 and is signed by appellant. Each contains
the following paragraph:
5
Appendix 5

I understand that I have not reached an agreement with the prosecutor
as to punishment. However, in exchange for the State waiving their [sic]
right to a jury trial, I intend to enter a plea of guilty without an agreed
recommendation of punishment from the prosecutor and request that
my punishment should be set by the Judge after a pre-sentence
investigation report and hearing. I understand the state reserves the right
to argue for full punishment at my sentencing hearing. I waive any
further time to prepare for trial to which I or my attorney may be
entitled. Further, in exchange for the state giving up their [sic] right
to a jury trial, I agree to waive any right of appeal which I may
have.
(Boldface added)
That paragraph, particularly the bolded language, constitutes record evidence
that appellant’s waiver of his right to appeal was bargained for. The State gave
consideration for the waiver in the form of waiving its own right to a jury trial.
Broadway compels us to conclude appellant’s waiver of his right to appeal is valid.
Accordingly, we dismiss these appeals for lack of jurisdiction. We deny as
moot the State’s motion to dismiss, appellant’s motion to strike the motion to
dismiss, and the State’s motion to extend time to file its brief.

Margaret ‘Meg’ Poissant
Justice

/s/

Panel consists of Justices Christopher, Spain, and Poissant. Spain, J., concurring.
Publish — TEX. R. APP. P. 47.2(b).

6
Appendix 6

Appeals Reinstated, Motions Disposed, Appeals Dismissed, and Majority and
Concurring Opinions filed January 28, 2020.

In the

Fourteenth Court of Appeals
NO. 14-19-00380-CR
NO. 14-19-00381-CR
CARLOS MICHAEL LOPEZ, Appellant
v.
THE STATE OF TEXAS, Appellee
On Appeal from the 262nd District Court
Harris County, Texas
Trial Court Cause Nos. 1564443 and 1564444
CONCURRING OPINION
Is there any general rule similar to Texas Rule of Appellate Procedure 42.3
that authorizes an involuntary dismissal in a criminal case? See Tex. R. App. P. 42.3
(involuntary dismissal in civil case either on party’s motion or appellate court’s own
initiative after giving ten days’ notice to all parties). No, there is no such counterpart
in a criminal case. Texas Rule of Appellate Procedure 42.4 only authorizes an
involuntary dismissal in a criminal case on the State’s motion when the appellant

Appendix 7

has escaped from custody.1 See Sutherland v. State, 132 S.W.3d 510, 511–12 (Tex.
App.—Houston [1st Dist.] 2004, no pet.). Because the Texas Rules of Appellate
Procedure do not set forth a procedure to dismiss a criminal case before submission
of briefs, e.g., a case in which the appellate court lacks jurisdiction, the question that
arises is how should the parties and the court proceed?
In these appeals, the State preemptively moved for involuntary dismissals,
arguing that appellant waived his right to appeal in return for the State waiving its
right to jury trials. The State cites no statute or rule allowing it to file such motions.
On behalf of appellant, the Harris County Public Defender moved to strike the
involuntary dismissals, stating in relevant part:
Rule 10 also states that a party may move for relief “unless these
rules prescribe another form.” TEX. R. APP. PRO. 10(a). It turns out that
The criminal rule allowing involuntary dismissal if appellant escapes from custody dates
back to an 1876 statute. Act approved Aug. 21, 1876, 15th Leg., R.S., ch. 131, § 1, art. 721, 1876
Tex. Gen. Laws 217, 217, recodified and repealed by 1879 Penal Code and Code of Criminal
Procedure, 16th Leg., R.S., § 2, art. 845, § 3, 1879 Tex. Crim. Stat. n.p. (Penal Code pagination),
n.p. (Code of Criminal Procedure pagination), 101, 157 (repealer), amended by Act approved Apr.
13, 1892, 22d Leg., 1st C.S., ch. 16, § 31, 1892 Tex. Gen. Laws 34, 38, recodified and repealed
by 1895 Penal Code and Code of Criminal Procedure, 24th Leg., R.S., § 2, art. 880, § 3, 1895 Tex.
Crim. Stat. 2 (Penal Code), 2 (Code of Criminal Procedure), 121, 182 (repealer), recodified by
1911 Penal Code and Code of Criminal Procedure, 24th Leg., R.S., § 2, art. 912, § 3, 1911 Tex.
Crim. Stat. n.p. (Penal Code), n.p. (Code of Criminal Procedure), 262 (no repealer of 1895 Code
of Criminal Procedure; see Berry v. State, 156 S.W. 626, 635 (Tex. Crim. App. 1913)), recodified
and repealed by 1925 Penal Code and Code of Criminal Procedure, 39th Leg., R.S., § 2, art. 824,
§ 3, art. 1, 1925 Tex. Crim. Stat. 2 (Penal Code), 2 (Code of Criminal Procedure), 131, 181
(repealer for both 1895 and 1911), amended by Act approved Mar. 10, 1933, 43d Leg., R.S., ch.
34, § 1, 1933 Tex. Gen. Laws 64, 64, recodified and repealed by 1965 Code of Criminal Procedure
of the State of Texas, 59th Leg., R.S., ch. 722, § 1, arts. 44.09, secs.1(a), 2, [2] 1965 Tex. Gen.
Laws 317, 513, 563 (repealer), amended by Act of June 1, 1981, 67th Leg., R.S., ch. 291, § 128,
1981 Tex. Gen. Laws 761, 815, repealed authorized by Act of May 27, 1985, 69th Leg., ch. 685,
§ 4, 1985 Tex. Gen. Laws. 2472, 2472 and repealed Tex. R. App. P. 60(b), 11 Tex. Reg. 1939,
2001, 49 Tex. B.J. 558, 576 (Tex. Crim. App. Apr. 10, 1986, eff. Sept. 1, 1986), amended by Tex.
R. App. P. 42.4, 60 Tex. B.J. 878, 923 (Tex. Crim. App. Aug. 15, 1997, eff. Sept. 1, 1997)
(apparently no publication in Texas Register; see Tex. Gov’t Code Ann. § 22.108(c)). The rule is
discussed in 43B George E. Dix & John M. Schmolesky, Texas Practice: Criminal Practice and
Procedure §§ 55:119–55.127 (3d ed. 2011).
1

2
Appendix 8

the Appellate Rules address—and very narrowly limit—the State’s
ability to move for the dismissal of an appeal in criminal cases. Rule 42
prescribes that the State may move for “involuntary dismissal in
criminal cases,” precisely what the State seeks in its motion here, only
on a sworn motion that alleges the appellant has escaped custody and
not returned within ten days. TEX. R. APP. PRO. 42.4. [Appellant] has
not escaped custody, nor does the State allege so. “The Rule does not
authorize involuntary dismissal of an appeal in a criminal case in any
other circumstance.” Sutherland v. State, 132 S.W.3d 510, 511–12
(Tex. App.—Houston [1st Dist.] 2004) (explaining Rule 42.4 permits
court to dismiss appeal on State’s motion in single circumstance of
escape). See also Cuellar v. State, 13 S.W.3d 449, 452 (Tex. App.—
Corpus Christi 2000) (applying Rule 42 strictly to hold it could not
dismiss appeal) and Cockrum v. State, No. 04-99-00005-CR, 2000 Tex.
App. LEXIS 4107, at *1–3 (Tex. App.—San Antonio June 21, 2000 –
not designated for publication) (same). The State may not move to
dismiss his appeal.2
....
A narrow rule in criminal cases makes sense. The dismissal of a
criminal appeal is a severe remedy that denies to a defendant an
important right. Moreover, waiver claims are complex issues. The
validity of an alleged waiver is often hotly contested, the outcome of
which depends on a long body of cases and a thorough review of the
record. See, e.g., Carson v. State, 559 S.W. 3d 489 (Tex. Crim. App.
2

The Public Defender added this footnote:

The Amarillo Court of Appeals many years ago invoked Appellate Rule 2 to
suspend Rule 42.4 and apply 42.3 to a criminal case to dismiss an appeal where the
Clerk’s Record had not been filed. See Rodriguez v. State, 970 S.W.2d 133, 135
(Tex. App.—Amarillo 1998) and Calderon v. State, No. 07-97-0417-CR, 1998 Tex.
App. LEXIS 2898, at *3–7 (Tex. App.—Amarillo May 15, 1998 – not designated
for publication). Other courts of appeals expressly declined to follow the Amarillo
Court’s practice. See Sutherland, 132 S.W.3d at 511–12; Tippett v. State, 2 S.W.3d
462, 463 (Tex. App.—San Antonio 1999). Perhaps having determined that
suspending the appellate rules was unwise, or just realizing that the Appellate Rules
permit the court to dismiss for want of prosecution in that situation, the Amarillo
Court appears to have abandoned applying Rule 42.3 to criminal cases. See, e.g.,
Coronado v. State, No. 07-11-00302-CR, 2012 Tex. App. LEXIS 334, at *2 (Tex.
App.—Amarillo Jan. 13, 2012– not designated for publication) (relying on 37.3 to
dismiss) and Herrera v. State, No. 07-07-0299-CR, 2008 Tex. App. LEXIS 171, at
*3–5 (Tex. App.—Amarillo Jan. 10, 2008– not designated for publication) (same).

3
Appendix 9

2018) (reviewing line of pre-sentence waiver cases before carefully
examining record below to find waiver). To decide a waiver claim, the
court of appeals must not only review the written agreement between
the parties but also the formal record; it must apply general contract
principles; and it must determine whether the defendant entered the
agreement knowingly, voluntarily, and intelligently. Jones v. State, 488
S.W.3d 801, 805 (Tex. Crim. App. 2016), citing Ex parte De Leon, 400
S.W.3d 83, 89 (Tex. Crim. App. 2013) and Monreal v. State, 99 S.W.3d
615, 617 (Tex. Crim. App. 2003). And the appellant may raise an
argument on appeal that would render the waiver itself invalid, such as
voluntariness or a jurisdictional challenge. See, e.g., Melton v. State,
987 S.W.2d 72, 75 n.2 (Tex. App.—Dallas 1998) (explaining court
could review merits of appeal because waiver may have been
involuntary). In short, motions by the State for involuntary dismissal
are not only restricted by the Rules, but those based on waiver claims
are by their nature ill-suited to resolution via motions. After all, a
person charged by the State with having waived the important right to
appeal surely deserves more time to respond than the Rules provide for
decisions on motions. TEX. R. APP. PRO. 10.3.
At bottom, the Rules do not allow for, and this Court should not
entertain, the State’s attempt to turn an appeal into a battle of motions.
If the State believes this Court should dismiss these appeals, then it
should put the argument in its brief.
The Public Defender’s position is not only not unreasonable, but it also makes a
credible argument that procedural due process requires the orderly handling of these
appeals, one in which the State does not have the exclusive right to frame the issues.
We asked for a response from the State. That reply states in relevant part:
In his motion to strike, the appellant claims that the Rules of
Appellate Procedure authorize involuntary dismissal of a criminal
appeal only if the appellant escapes from prison during the pendency of
the appeal. Therefore, the appellant claims, the State cannot file a
motion to dismiss an appeal in any other circumstance.
The appellant’s argument is an example of begging the question.
Even if the Rules of Appellate Procedure state that an appeal can be
involuntarily dismissed in only one circumstance, that would apply
only if this was a valid appeal. It is not.
4
Appendix 10

There are numerous situations where criminal defendants
attempt, but fail, to invoke the jurisdiction of an appellate court: Filing
an untimely notice of appeal, Slaton v. State, 981 S.W.2d 208, 210 (Tex.
Crim. App. 1998); filing a notice of appeal after entering a plea bargain,
Theus v. State, 524 S.W.3d 765, 766 (Tex. App.—Houston [14th Dist.]
2017, no pet.); filing a notice of appeal where there is no appealable
order, Ex parte Lewis, [No.] 14-16-00629-CR, 2017 WL 6559647, at
*2 (Tex. App.—Houston [14th Dist.] Dec. 21, 2017, pet. ref’d). In each
of these situations the only action an appellate court can take is to
dismiss the purported appeal; without jurisdiction there is nothing else
to do.
The appellant filed notices of appeal after waiving his right to
appeal. That fails to invoke this Court’s jurisdiction. Whether on
motion from the State or on its own, the only thing this Court may
lawfully do with this purported appeal is dismiss it. See Marsh v. State,
444 S.W.3d 654, 660 (Tex. Crim. App. 2014) (ordering court of appeals
“to withdraw its opinion and dismiss the appeal” where defendant had
waived right to appeal but court of appeals issued opinion addressing
merits of claims).
(Footnote omitted). The State does not respond to the statement in Sutherland that
Texas Rule of Appellate Procedure 42.4 “does not authorize involuntary dismissal
of an appeal in a criminal case in any other circumstance [than defendant’s escape
from custody].” Sutherland, 132 S.W.3d at 511.
Both the plain meaning and judicial interpretations of the Texas Rules of
Appellate Procedure preclude the State from moving to dismiss. If the State feels
strongly that, in appeals like these, it should be able to file motions for involuntary
dismissal before submission on briefs, then the State should encourage the Court of
Criminal Appeals of Texas to amend Texas Rule of Appellate Procedure 42 and
provide for a process similar to involuntary dismissal in a civil case.
In the absence of such a rule allowing involuntary dismissal in a criminal case,
either on the State’s motion, or on the appellate court’s own initiative, after giving
adequate notice to all parties, the courts of appeals have no uniform practice. In these
5
Appendix 11

appeals the court on its own initiative gave notice of involuntary dismissals, rather
than grant the State’s motions to dismiss.
Still, there remains the argument that such notice is inefficient. I find this
wholly unpersuasive because what is at issue is procedural due process:
The central aim of due process is to assure fair process when the
government imposes a burden on the individual. The doctrine seeks to
prevent arbitrary government, avoid mistaken deprivations, allow
persons to know about and respond to charges against them, and
promote a sense of legitimacy of official behavior.
Procedural due process does not prevent the government from making
a deprivation.
The Oxford Companion to the Supreme Court of the United States 236 (Kermit L.
Hall ed., 1992). Efficiency does not supersede the judiciary’s responsibility to afford
constitutional due process.
In these appeals the court has given appellant the procedural due process and
due course of law to which he is entitled, and it is now appropriate to involuntarily
dismiss them. And going forward this court should give procedural due process and
due course of law in the absence of a rule similar to Texas Rule of Appellate
Procedure 42.3.3 I do, however, disagree with the suggestion in footnote one of the
court’s opinion that an appellant is not entitled to notice of an involuntary dismissal.
We are required to give notice of involuntary dismissal based on want of jurisdiction
in civil cases. Tex. R. App. P. 42.3(a). Presumably there are greater constitutional
interests at stake in criminal cases—life and liberty—not merely property. See U.S.
Const. amends. V, XIV, § 1 (due process); Tex. Const. art. I, § 19 (due course of

The Court of Criminal Appeals of Texas has the power to amend the Texas Rules of
Appellate Procedure and resolve this due-process and due-course issue. See Tex. Gov’t Code Ann.
§ 22.108 (granting rulemaking power to court of criminal appeals in posttrial, appellate, and review
procedure in criminal cases).
3

6
Appendix 12

law). I see no reason that a party in a criminal case should have less of a right to
procedural due process and due course of law than a party in a civil case. To the
extent that constitutional due-process and due-course protections are perceived to be
inefficient, it is a choice that we the people made some time ago in ratifying the state
constitution and ratifying amendments to the federal constitution.
As long as the court gives appropriate notice of a necessary involuntary
dismissal in a criminal case, I will join a future judgment of dismissal as I do in these
appeals. In the meantime, I urge the Court of Criminal Appeals of Texas to amend
Texas Rule of Appellate Procedure 42 and give a party in a criminal case the same
due-process and due-course rights that are afforded to a party in a civil case.

Charles A. Spain
Justice

/s/

Panel consists of Justices Christopher, Spain, and Poissant. (Spain, J., concurring).
Publish — TEX. R. APP. P. 47.2(b).

7
Appendix 13

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

4/29/2020
COA No. 14-19-00380-CR
LOPEZ, CARLOS MICHAEL Tr. Ct. No. 1564443
PD-0132-20
On this day, the Appellant's petition for discretionary review has been refused.
Deana Williamson, Clerk
NICHOLAS VITOLO
EL PASO COUNTY PUBLIC DEFENDER OFFICE
500 E SAN ANTONIO, STE 501
EL PASO, TX 79901
* DELIVERED VIA E-MAIL *

Appendix 14

Appendix 15

52

Appendix 16

53

Appendix 17

54

Appendix 18

55

Appendix 19

56

Appendix 20

57

Appendix 21

58

Appendix 22

59

Appendix 23

60

Appendix 24

61

Appendix 25

62

Appendix 26

63

Appendix 27

64

Appendix 28

65

Appendix 29

66

